          Office of Inspector General




May 26, 2006


TOM A. SAMRA
VICE PRESIDENT, FACILITIES

HENRY A. PANKEY
VICE PRESIDENT, EMERGENCY PREPAREDNESS

WILLIAM P. GALLIGAN
SENIOR VICE PRESIDENT, OPERATIONS

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Management Advisory – Postal Service’s Replacement and Repair of
         Facilities Affected by Hurricane Katrina (Report Number FA-MA-06-001)

This report presents the results of our self-initiated review of the U.S. Postal Service’s
response in replacing or repairing its facilities affected by, and in the near-term
aftermath of, Hurricane Katrina (Project Number 06XG001FA000). This review was
conducted in cooperation with Postal Service Facilities headquarters and Facilities
Service Offices (FSO) in the Southeast and Southwest Areas.

                                        Background
Between August 25 and 30, 2005, Hurricane Katrina besieged the Gulf Coast region
with winds and rains, devastating the states of Louisiana, Mississippi, Alabama, and
Florida. As a result, numerous postal facilities in the affected areas suffered severe
damage or complete destruction, requiring emergency construction funding. The U.S.
Postal Service estimated the costs at over $126 million. Specifically, the Postal Service
identified the following:

   •   Repair of damage to 64 Postal Service-owned facilities, including the
       New Orleans Processing and Distribution Center (P&DC) ($42 million).

   •   Repair of damage to 111 leased facilities ($11 million).

   •   Replacement of five destroyed Postal Service leased facilities ($4 million).
Postal Service’s Replacement and Repair of Facilities                             FA-MA-06-001
 Affected by Hurricane Katrina




       •   Replacement of equipment at the New Orleans P&DC ($20 million).

       •   Replacement of retail operations equipment, supplies, signage, and uniforms
           ($17.6 million).

       •   Repair of salvageable vehicles, and replacement of damaged vehicles and
           equipment ($9.6 million).

       •   Replacement of cluster box units and post office box units ($9 million).

       •   Replacement of information technology hardware and communications
           ($12.6 million).

       •   Replacement of Postal Inspection Service equipment vehicles, and operations
           ($.5 million).

Facilities is an enabling organization within the Postal Service with the primary mission
of providing quality real estate and facilities products and services to meet the present
and future needs of postal operations and to realize optimum value from facilities assets
and transactions. Facilities initiates projects at the request of areas and districts during
normal as well as emergency conditions.

The majority of the Postal Service facilities program work is accomplished by FSOs and
includes planning, leasing, purchasing, designing, and constructing facilities to house
postal operations.1 Organizational administration, policy and procedure development,
and realty asset management functions are administered from headquarters. Facilities
divides its responsibilities into four groups: Design and Construction, Real Estate,
Asset Management, and Planning and Approval.

Facilities developed the Facilities Single Source Provider (FSSP) program as a single
point of contact for all facility work within a Postal Service area. Under the FSSP
program, the FSOs assumed facility repair work and enforcement of lessor maintenance
previously performed by postmasters. One component of the FSSP program is the
Response Line, a toll-free number that Postal Service personnel use to report all facility
repair needs. Dedicated personnel manage the Response Line and record each
problem in the FSSP system, a Web-based tracking system.

To comply with Homeland Security’s Presidential Directive 5, the Postal Service
developed the Integrated Emergency Management Plan (IEMP). The IEMP is a
comprehensive plan used to prepare for, mitigate, respond to, and recover from
domestic emergencies that occur on Postal Service sites. The IEMP consolidates

1
    This program also contracts for these various real estate services.



                                                             2
Postal Service’s Replacement and Repair of Facilities                                                       FA-MA-06-001
 Affected by Hurricane Katrina


facility stand-alone plans, which include the Continuity of Operations Plan (COOP) and
the Emergency Action Plan. The Postal Service also has supplemental hurricane
plans.2

The IEMP also establishes emergency management teams and defines team roles and
responsibilities. The IEMP identifies the phases and stages of an emergency response
and responsibilities of the Emergency Management Team (EMT)3 during each phase
and stage.

                              Objective, Scope, and Methodology
The objective of this review was to assess the Postal Service’s response in replacing or
repairing its facilities affected by, and in the near-term aftermath of, Hurricane Katrina.

To accomplish our objective, we reviewed applicable Postal Service policies and
procedures. We interviewed Postal Service officials to gain an understanding of the
procedures executed in the immediate aftermath of Hurricane Katrina. Cleanup and
repair contracts had not been finalized at the time of this review. However, the
Southwest FSO requested that the U.S. Postal Service Office of Inspector General
(OIG) review the cleanup contracts to help ensure that costs are effectively controlled.
We plan to conduct a contract review once the contracts have been finalized.

We conducted this review from October 2005 through May 2006, in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with management officials and included
their comments where appropriate.

                                           Prior Audit Coverage
The United States Government Accountability Office (GAO) issued a report on
Continuity of Operations (Report Number GAO-04-160, dated February 2004). GAO
reviewed 34 federal agencies’ COOPs against Federal Emergency Management
Agency (FEMA) guidance. GAO found that the agencies did not identify all essential
functions in their plans. GAO also found that FEMA did not review the essential
functions when assessing COOP planning and did not conduct tests or exercises to
confirm that essential functions were identified. FEMA has begun making such
improvements.



2
  Louisiana District Hurricane Guide 2005 and Southeast Area Hurricane/Tropical Storm Procedure, dated June 1,
2005.
3
  The district EMT members include the emergency manager, installation emergency management coordinator,
information officer, safety officer, liaison officer, emergency operations section chief, planning section chief, logistics
section chief, financial/administration section chief, law enforcement branch director, documentation unit leader,
medical unit leader, food unit leader, support branch director, facilities unit leader, time unit leader, procurement unit
leader and compensation/claim unit leader.



                                                             3
Postal Service’s Replacement and Repair of Facilities                                                       FA-MA-06-001
 Affected by Hurricane Katrina


                                                       Results

Facilities Operations

The Postal Service quickly and successfully responded to Hurricane Katrina. Facilities
headquarters, the Southeast and Southwest FSOs and areas, impacted districts, and
the Postal Inspection Service worked together to assess facility damage and
remediation work.

Various organizations within the Postal Service also worked together to identify future
needs of mail processing facilities. Because of this quick action, the FSOs identified
and retained several facilities that met operational needs and reestablished mail
processing in the Gulf Coast region.

While these actions were commendable, we identified several areas where the Postal
Service could improve its response to future disasters. These areas include improving
access to facilities, following standard lockdown procedures, developing procedures for
prearrangements with haulers of mobile homes and trailers, improving communications,
ensuring that appropriately sized generators are available, and securing multiple
national contracts for cleanup.

Commendable Actions Taken

We found that Facilities headquarters and the Southeast and Southwest FSO worked
together to implement actions that were consistent with the IEMP. These actions
enabled the Postal Service to resume operations as quickly as possible in the aftermath
of the hurricane. Specifically, prior to Hurricane Katrina, Facilities:

    •    Identified and established FSO emergency response teams consisting of a FSO
         project manager, an architect-engineer, and a construction firm representative to
         assess facility damage and contact appropriate contractors for repairs.

    •    Notified and coordinated with architect-engineer and construction contractors.

    •    Created emergency “grab and go” kits4 for FSO project managers to take on the
         road.

    •    Assembled equipment, vehicles, food, water, fuel, and necessary supplies for the
         FSO response teams.

    •    Procured trailers and recreation vehicles for carrier and retail service use after
         the hurricane landed.

4
 “Grab and go” kits contained a radio, portable television, batteries, medical kit, rope, duct tape, knife, flashlight,
boots, hard hat, hand tools, and caution tape.



                                                             4
Postal Service’s Replacement and Repair of Facilities                                                   FA-MA-06-001
 Affected by Hurricane Katrina



During Hurricane Katrina’s aftermath, Facilities worked to support Postal Service
operations by assessing damages and finding alternatives. For example:

       •   The Southwest Area and FSO together quickly identified future needs of mail
           processing facilities5 and obtained three facilities before they were leased to
           other firms.

       •   An assessment team, consisting of FSO and Postal Inspection Service
           personnel, an environmental consultant, and a structural engineer, was created
           to perform building assessments and cleanup.

       •   Postmasters reported facility damages through the Facilities Single Source
           Provider Response Line.

In addition, the FSOs suspended the rent payments for 25 leased facilities that were
uninhabitable. Thirteen leased facilities were damaged and six were destroyed in the
Southwest Area, and six facilities were damaged in the Southeast Area during
Hurricane Katrina. These lease abatements totaled more than $47,000 per month.

Lessons Learned

Postal Service Facilities identified several areas for improvement to help respond to
future disasters. According to Facilities management:

       •   The response teams could not easily access some facilities because spare keys
           were not available.

       •   While some post offices secured mail in high places, others did not. Postmasters
           did not have standard lockdown procedures.6

       •   Although trailers were secured in advance, prearrangements with mobile home
           haulers were not made, nor were set-up crews preestablished.

       •   Communications could be improved by purchasing satellite phones and
           distributing them to the Southeast and Southwest FSOs.

       •   Better coordination is needed when hooking up large generators at plants. It
           would be beneficial to know what is necessary for hookup at vulnerable plants.




5
    The New Orleans P&DC was severely damaged during flooding from Hurricane Katrina.
6
    We identified procedures for safeguarding mail from flooding in the Postal Service’s supplemental hurricane plans.



                                                            5
Postal Service’s Replacement and Repair of Facilities                            FA-MA-06-001
 Affected by Hurricane Katrina


    •   Small and large generators were available; however, medium-sized generators
        were not available to power small or medium-sized post offices.

    •   There was only one resource available for the cleanup effort. According to
        Facilities, two or three national contracts need to be established for cleanup
        services. Additional resources would help expedite the cleanup efforts.

Office of Inspector General Evaluation of Facilities Response to Hurricane Katrina

Postal Service Facilities successfully prepared for and responded to the devastation
caused by Hurricane Katrina. Overall, the actions planned and taken ensured continuity
of service for the majority of the affected area. However, there were areas for
improvement. Addressing the lessons learned as the result of Hurricane Katrina will
improve the Postal Service’s ability to respond to similar occurrences in the future.

Recommendations

We recommend the vice president, Facilities:

    1. Purchase satellite phones or another feasible alternative, as needed, and
       distribute them to the Facilities Service Offices for use during future disasters.

We recommend the vice president, Emergency Preparedness:

    2. Develop procedures for duplicating and securing facility keys for emergency
       access by Postal Service response personnel.

We recommend the senior vice president, Operations, and the area vice presidents:

    3. Ensure that postmasters follow the procedures for safeguarding mail during
       floods.

We recommend the vice president, Supply Management:

    4. Develop procedures to ensure appropriate prearrangements are made with
       haulers of mobile homes and trailers.

    5. Ensure that appropriately sized generators are acquired.

    6. Establish national contracts to expedite cleanup efforts.

Management’s Comments

Management agreed with our recommendations and stated that both the Southeast and
Southwest Facilities Service Offices will procure mobile communication devices from



                                                        6
Postal Service’s Replacement and Repair of Facilities                         FA-MA-06-001
 Affected by Hurricane Katrina


multiple cellular providers to increase service availability near devastated areas. In
addition, management will ensure that procedures for making duplicate keys available
are followed, and stated that district managers must certify that they have read the
IEMP for their district and fully understand the procedures for safeguarding mail during
a flood. Management has also taken measures to support the movement of mobile
homes and trailers during future disasters, has established national contracts to acquire
appropriately sized generators, and is establishing a national contract to expedite
building cleanup following a disaster. Management’s comments, in their entirety, are
included in the appendix.

Evaluation of Management’s Comments

Management’s comments are responsive to all six recommendations and actions taken
and planned should correct the issues identified in the findings.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, director,
Supply Management and Facilities, or me at (703) 248-2300.

    E-Signed by Mary Demory
 ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachment

cc:   Patrick R. Donahoe
      Thomas G. Day
      Robert J. Pederson
      Area Vice Presidents
      Kim S. Barnes
      Michael L. Goodwin
      George Overby
      Steven R. Phelps




                                                        7
Postal Service’s Replacement and Repair of Facilities       FA-MA-06-001
 Affected by Hurricane Katrina


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                        8
Postal Service’s Replacement and Repair of Facilities       FA-MA-06-001
 Affected by Hurricane Katrina




                                                        9
Postal Service’s Replacement and Repair of Facilities        FA-MA-06-001
 Affected by Hurricane Katrina




                                                        10
Postal Service’s Replacement and Repair of Facilities        FA-MA-06-001
 Affected by Hurricane Katrina




                                                        11
Postal Service’s Replacement and Repair of Facilities        FA-MA-06-001
 Affected by Hurricane Katrina




                                                        12
